No.

±0-W ?
IN THE

SUPREME COURT OF THE UNITED STATES

CARLINE CURRY — PRO SE PETITIONER
V.S
Douglas Mackenzie

RESPONDENT(S)

FILED
JAN 0 h 2021'
OFFICE OF THE CLERK
SUPREME COURT II R

ON PETITION FOR A WRIT OF CERTIORARI TO
SUPREME COURT OF OHIO 2020-0727
(NAME OF COURT THAT LAST RULED ON MERITS
OF CASE)
PETITION FOR A WRIT OF CERTIORARI
Carline Curry (Pro Se)
606 Bowman Street
Mansfield. Ohio 44903
567-274-9130 or 567-3907

RECEIVED
MAR 3 - 2021

1

QUESTION PRESENTED
THIS IS A QUESTION OF CONSTITUTION
CHALLENGE FOR DEFAULT JUDGEMENT
The Ohio Supreme Court declined to accept
Jurisdiction of the Appeal & a motion for a new
Reconsideration or trial was denied the tenth District
Court dismissed my case because they said the brief was
not submitted on time; the brief was submitted on time;
and I resubmitted it once the clerk told me it wasn’t
submitted. The court awarded me partial Liability of
11,671 when I actually spent 14,679.04 (the judge
misunderstood what I told her the final balance was for
the company to revive the patent.)
The judgement entry was not according to law. Mr.
Mackenzie failed to plead and I should have been
awarded the amount prayed for in the initial complaint

2

which was 100,000,000 million dollars under Rule 4 B
Process of Summons and Ohio Rule of Civil Procedure
Rule 54 C. The question of constitution challenge is
should plaintiff Curry had been awarded the amount
prayed For in the initial complaint according to law
under Ohio Rules of Civil Procedure Rule 4 Process of
Summons, and Rule 54 ( C ) Demand.

3

LIST OF PARTIES
[] All parties appear in the caption of the case on the cover
page.
[X] All parties do not appear in the caption of the case on
the cover page. A list
of all the parties to the proceeding in the court whose
judgement is the subject of
this petition is as follows:
Douglas Mackenzie 19 Saucito Ave. Montery, CA 93940
Attorney General Dave Yost, 30 E. Broad Street; 14 th
floor; Columbus, Ohio 43215
28 U.S.C. 451 may apply.
Solicitor General, Elizabeth Prelogar; Department of
Justice Room 5616; 950 Pennsylvania Ave. N.W.
Washington D.C 20530

4

TABLE OF CONTENTS

QUESTION PRESENTED AND LIST OF PARTIES
■Page 1 & 2
TABLE OF CONTENTS
■Pages 4 & 5
TABLE OF AUTHORTIES CITED AND STATUES
■Pages 6 & 7
CONSTITUTIONA AND STATURORY PROVISIONS
INVOLVED AND OPINIONS BELOW AND
JURISDICTION

Pages 7 thru 20

STATEMENT OF THE CASE

REASON FOR GRANTING THE WRIT

CONCLUSION
Page 24 -26

Pages 20 - 23

Page 24

5

INDEX TO APPENDICES
ApendixA Pages

6

TABLE OF AUTHORITIES CITED
CASES
Bank of America vs. William Chad Sullivan Trial Court
CV20140743
Thomas V. State Farm Fire & Causualty Company No 2002
CA-00656-C)A
Brandon Apparel Group vs. Kirkland Ellis NO. 1-06=1432
Fitzgerald v. Harris (County Sheriff Department U.S. D. C.
(S.D Tx) No. 4:14 CV-01330
Joyce vs. Pepsi Inc. May 25,2012 813 N.W. 2d. 247 Wis.
Columbus v. Hodge 37 Ohio App. 3d8,523 N.E. 2S 515
(1987)
Bivens v. Six Unknown Named Agents of Federal Bureau
of Narcotics, 403 U.S. 388 (1971)
CONSTITUTIONAL PROVISIONS & STATUTES
Rule 55 Default Judgement

7

Rule 4 B Summons Process
Rule 54 C JUDGEMENT COST
42 U.S.C. 1983DEPRIVATION OF RIGHTS
42 U.S.C. 1985 Conspiracy to Interfere with Civil Rights
5th and 16 th Amendment of the Bill of Right
Ohio Ride of Civil Procedure Rule 38
5 USC 706
28USC 1361 action to compel an officer of the United
States to perform his or her duty (mandamus)
OHIO RULES OF CIVIL PROCEDURES
RULES OF PRACTICE OF THE SUPREME COURT
OF OHIO
7.08(B) (4) JURISDICTION
(B) Decision on jurisdiction upon review of the
jurisdictional memorandum, the Supreme Court will do one
of the following:

8

(1) Accept the appeal and order that the case be briefed in
accordance with the applicable provisions of S.Ct.Prac.R.
16.01 through 16.08;
(2) Accept the appeal and hold the decision in the appeal
for another case that is pending before the Supreme Court;
(3) Accept the appeal and enter judgment summarily; 2013
v 2017 Rules of Practice
Rules of Practice 47 RULES 7.08-7.09
(4) Decline to accept the appeal. In declining to accept
an appeal the Supreme Court has determined that one
or more of the following are applicable after review of
the jurisdictional memorandum: (a) The appeal does
not involve a substantial constitutional question and
should be dismissed; (b) The appeal does not involve a
question of great general or public interest; (c) The
appeal does not involve a felony; (d) The appeal does
involve a felony, but leave to appeal is not warranted.

9

The Ohio Constitution [The 1851 Constitution with
Amendments to 2015]
IV.02 Organization and jurisdiction of Supreme Court
(A) The Supreme Court shall, until otherwise provided by
law, consist of seven
Judges, who shall be known as the chiefjustice and
justices. In case of the absence or disability of the
chiefjustice, the judge having the period of longest
total service upon the court shall be the acting chief
justice. If any member of the court shall be unable,
by reason of illness, disability or disqualification, to
hear, consider and decide a cause or causes, the
chiefjustice or the acting chiefjustice may direct
any judge of any court of appeals to sit with the
judges of the Supreme Court in the place and stead
of the absent judge. A majority of the Supreme

10

Court shall be necessary to constitute a quorum or
to render a judgment.
(B)(1) The Supreme Court shall have original jurisdiction
in the following:
(a) Quo warranto;
(b)Mandamus;
(c) Habeas corpus;
(d) Prohibition;
(e) Procedendo;
(f) In any cause on review as may be necessary to its
complete determination;
g) Admission to the practice of law, the discipline of
persons so admitted, and all other matters relating to the
practice of law.

11

2) The Supreme Court shall have appellate jurisdiction
as follows:
(a) In appeals from the courts of appeals as a matter of right
in the following:
(i) Cases originating in the courts of appeals;
(ii) Cases in which the death penalty has been affirmed;
(iii) Cases involving questions arising under the
constitution of the United States or of this state.
(b) In appeals from the courts of appeals in cases of felony
on leave first obtained,
(c) In direct appeals from the courts of common pleas or
other courts of record inferior to the court of appeals as a
matter of right in cases in which the death penalty has been
imposed;
(d) Such revisoiy jurisdiction of the proceedings of
administrative officers or

12

agencies as may be conferred by law;
(e) In cases of public or great general interest, the
Supreme Court may direct any court of appeals to
certify its record to the Supreme Court, and may review
and affirm, modify, or reverse the judgment of the court
of appeals;
(f) The Supreme Court shall review and affirm, modify, or
reverse the judgment in any case certified by any court of
appeals pursuant to section 3(B)(4) of this article. ((3(b) (4)
missing.)
(3) No law shall be passed or rule made whereby any
person shall be prevented from invoking the original
jurisdiction of the Supreme Court.
(C) The decisions in all cases in the Supreme Court shall
be reported, together with the reasons therefor.
(Amended November 8,1994)

13

BILL OF RIGHTS AMENDMENT 16 & 5
Redress for injury; Due process. §16 all courts shall be
open, and every person, for an injury done him in his land,
goods, person, or reputation, shall have remedy by due
course of law, and shall have justice administered without
denial or delay. Suits
may be brought against the state, in such courts and in such
manner, as may be provided by law. (1912)
Trial by jury. §5
The right of trial by jury shall be inviolate, except that, in
civil cases, laws may be passed to authorize the rendering
of a verdict by the concurrence of not less than threefourths of the jury. (1912)
The constitutionality of a statue of a state was drawn
into questioning under Supreme Court Rule number 29.
(Jurisdiction of the court, right to redress, default
Judgement/Summary Judgement & jury by trial) 28 U.S.C.

14

2403(a) may apply and the complaint is being served on
The Solicitor General of the United States, Room
5616, Department of Justice, 950 Pennsylvania Ave., N. W.
Washington, DC 205300001 and Mr. Dave Yost, The Attorney General of Ohio,
150 East Gay Street, Columbus, Ohio 43215.
Default Judgement
defendant that in case of failure to do so,
judgment by RULE 4. Process: Summons (A)
Summons: issuance. Upon the filing of the
complaint the clerk shall forthwith issue a
summons for service upon each defendant listed
Rule 55 Default (A) Entry of judgment. When a
party against whom a judgment for affirmative relief
is sought has failed to plead or otherwise defend as
provided by these rules, the party entitled to a

15

judgment by default shall apply in writing or orally
to the court.
OHIO RULE 58. Entry of Judgment (A) Preparation;
entry; effect; approval. (1) Subject to the provisions of Rule
54(B), upon a general verdict of a jury, upon a decision
announced, or upon the determination of a periodic
payment plan, the court shall promptly cause the judgment
to be prepared and, the court having signed it, the clerk
shall thereupon enter it upon the journal. A judgment is
effective only when entered by the clerk upon the journal.
(2) Approval of a judgment entry by counsel or a party
indicates that the entry correctly sets forth the verdict,
decision, or determination of the court and does not waive
any objection or assignment of error for appeal.
(Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or
the District of Columbia, subjects, or causes to be subjected,

16

any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and
laws, shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for an
act or omission taken in such officer's judicial capacity,
injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable..
For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
. IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of Certiorari issue
to review the judgement below.

17

OPINIONS BELOW
This case was not heard in federal courts or the United
States district court
[X] For cases from state courts;
The opinion of the highest state court to review the merits
appears at
Appendix____A

to the petition and is

[ ] reported at
or,
[ ] has been designated for publication but is not yet
reported; or
[X] is unpublished.
The court denied to hear my case on December 2,2020

JURISDICTION
This case was not heard before federal court;
[X] for cases from state courts

18

[X ] The date on which the highest state court decided
my case was December 2, 2020
A copy of that decision appears at Appendix___A
[ ] A timely petition for rehearing was denied by the
Court of Appeals on the following date;
and a copy of the
order denying rehearing appears at Appendix

[ ] An extension of time to file the petition for a Writ of
Certiorari was granted to and including
(date) on
(date) in Application No.

[X] The jurisdiction of this Court is invoked under 28
U.S.C. 1257(a).
The court denied to hear my case on December 2,2020

19

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED STATUTES AND RULES
Ohio Rule of Civil Procedure Rule 4 B Process of
Service
1.05 Trial by jury (1851, amended 1912)
The right of trial by jury shall be inviolate, except that, in
civil cases, laws may be passed to authorize the rendering
of a verdict by the concurrence of not less than threefourths of the jury. “Ohio Constitution Bill of Rights”
(As amended September 3,1912.)
1.16 Redress in courts (1851, amended 1912)
All courts shall be open, and every person, for an injury
done him in his land, goods, person, or reputation, shall
have remedy by due course of law, and shall have justice
administered without denial or delay. [Suits against the
state.] Suits may be brought against the state, in such courts

20

and in such manner, as may be provided by law, “Ohio
Constitution bill of Rights”
(As amended September 3,1912.)
STATEMENT OF THE CASE
Mr. Mackenzie was negligent in processing my patent
andl was awarded Default Judgement of 11,761 plus
interest and cost not in accordance with Civil Rule 54 ©
and Civil Rule 4 B Process of Summons. The amount the
Judge awarded me did not cover the cost that I paid to
Attorneys to Revive my patent. The Judge misunderstood
me oh how much I paid the attorneys in a hearing held on
September 3,2019.. The total expenditures were 8074.04
paid to Invent help, and 5,840.00 dollars to Hahn and
Loeser to revive the patent, and 745 dollars for the basic
information packet for a total of 14,697.04 cents. On
October 16,2019 and October 26,2019,1 objected and
motioned for reconsideration.

21

I appealed to the court for two reason: #1. Eleven
thousand seven hundred and sixty dollars (11,761) was
calculated in error because I called the Attorneys and they
said I owed 2,761 on the balance and the Judge thought that
was the total amount paid. I asked the Judge for
reconsideration due to her misunderstanding me for the sum
of 14,784.00 in my brief that was submitted on February 10,
2020. The court said they did not receive the brief. I had to
send the brief again in March and motioned the court to
accept the brief late when I had already sent it in February.
(I copied the submitted page). I got a letter in the mail from
the court on March 10 2020, saying that I did not submit
my brief so, I resubmitted it on March 11, 2020 and
motioned the court to resubmit it again. The Judge closed
my case for failure to submit a brief in a timely manner
when the brief had been submitted.

The second reason I

appealed was the Judgement was not according to law

22

according to Rule 54 ( C ) of the Ohio Rules of Civil
Procedure and Rule 4 Process of Summons.

Ohio Rule of Civil Procedure Rule 54 (C)
A Judgement by default shall not be different in kind
from or exceed in amount that prayed for in the demand for
judgement, Except as to a party against whom a judgement
is entered by default, every final judgement shall grant the
relief to which the party in whose favor it is rendered is
entitled, even if the party had not demanded the relief in the
pleadings.
In my original complaint I prayed for relief of
100,000,000 One Hundred Million Dollars including the
cost to process the patent, due to lost profit opportunities, a
financial hardship, loss quality time with family, stress,
mental anguish and negligent tort by Mr. Mackenzie.

23

Ohio Rule of Civil Procedure Rule 55 Default
Judgement & Rule 4
RULE 4. Process: Summons (A)
Summons: issuance. Upon the filing of the
complaint the clerk shall forthwith issue a
summons for service upon each defendant listed
in the caption. Upon request of the plaintiff
separate or additional summons shall issue at
any time against any defendant. (B) Summons:
form; copy of complaint. The summons shall be
signed by the clerk, contain the name and
address of the court and the names and addresses
of the parties, be directed to the defendant,
state the name and address of the plaintiff’s
attorney, if any, otherwise the plaintiffs address, and
the times within which these rules or any statutory

24

provision require the defendant to appear and defend,
and shall notify the defendant that in case of failure to
do so, judgment by default will be rendered against the
defendant for the relief demanded in the complaint.
REASON FOR GRANTING THE PETITION
The Petition should be granted because Mr. Mackenzie
was in default and failed to plead and the judgement
entry was not according to law under Ohio Rules of
Civil Procedure Rule 4 Process of Summons and Rule
54 © Demand for judgement,
Ohio Rule of Civil Procedure Rule 54 C
A Judgement by default shall not be different in kind from
or exceed in amount that prayed for in the demand for
judgement. Except as to a party against whom a judgement
is entered by default, every final judgement shall grant the
relief to which the party in whose favor it is rendered is

25

entitled, even if the party has not demanded the relief in the
pleadings.
CONCLUSIONS
The Petition for the writ of Certiorari should be granted,
Mr. Mackenzie abandoned my patent application the Office
of Discipline and Enrollment found Mr. Mackenzie to be
negligent in processing my patent and he failed to plead so
Judge Brown awarded me default judgement because he
failed to plead or answer the complaint which was Default
Judgement under Ohio Civil Rule 55 and Ohio Civil Rule 4
Process of Summons.
The Judgement that the judge granted me was not
according to law. If Judgement is not granted according to
law I should at least get 14,697.04 cents the amount I spent
to file the patent and have it revived. The Battery Industry
will be a 129 billion dollar industry in the future. Plaintiff
Curry is motioning the court to reverse the lower court

26

decision and award Default Judgement according to law
under Rule 4 B Process of Summons. The amount
requested in the initial complaint was One Hundred Million
Dollars which would include the 3023 dollars not awarded
at the lower court due to an misunderstanding
Respectfully submitted
Date:

£} S ■ a 63l|
Carline Curry Pro Se
606 Bowman Street
Mansfield, Ohio 44903
567-274-9130 and 419-709-9716

